APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Page
APPENDIX A:
Opinion of the United States Court of Appeals
for the Fourth Circuit, Malpasso v. Pallozzi,
No. 18-2377 (April 29, 2019) . . . . . . . . . . . . . . 1a
APPENDIX B:
Opinion of the United States District Court for
the District of Maryland, Malpasso v. Pallozzi,
No. 1:18-cv-1064-ELH (October 15, 2018) . . . 4a
APPENDIX C:
Constitutional Provisions, Statutes, and
Regulations Involved . . . . . . . . . . . . . . . . . . . . 7a
U.S. Const. amend. II . . . . . . . . . . . . . . . . 7a
U.S. Const. amend. XIV, § 1 . . . . . . . . . . . 7a
Md. Code Ann., Crim. Law § 4-203. . . . . . 7a
Md. Code Ann., Pub. Safety § 5-301 . . . . 14a
Md. Code Ann., Pub. Safety § 5-303 . . . . 15a
Md. Code Ann., Pub. Safety § 5-305 . . . . 15a
Md. Code Ann., Pub. Safety § 5-306 . . . . 17a
Md. Code Ann., Pub. Safety § 5-307 . . . . 20a
Md. Code Ann., Pub. Safety § 5-308 . . . . 21a
Md. Code Ann., Pub. Safety § 5-309 . . . . 21a
Md. Code Ann., Pub. Safety § 5-310 . . . . 22a
Md. Code Ann., Pub. Safety § 5-311 . . . . 22a
Md. Code Ann., Pub. Safety § 5-312 . . . . 23a
Md. Code Ann., Pub. Safety § 5-313 . . . . 26a
Md. Code Regs. § 29.03.02.02 . . . . . . . . . 26a
Md. Code Regs. § 29.03.02.03 . . . . . . . . . 27a

ii
APPENDIX D:
Complaint for Declaratory and Injunctive
Relief, Malpasso v. Pallozzi, No.
1:18-cv-1064-ELH (April 12, 2018) . . . . . . . . 31a
APPENDIX E:
Exhibit 1 to Complaint for Declaratory
and Injunctive Relief, Maryland
Department of State Police Licensing
Division Application . . . . . . . . . . . . . . . . . . 43a

1a
APPENDIX A
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-2377

BRIAN KIRK MALPASSO; MARYLAND STATE
RIFLE AND PISTOL ASSOCIATION, INC.,
Plaintiffs - Appellants,
v.
WILLIAM M. PALLOZZI, in his official capacity as
Maryland Secretary of State Police,
Defendant - Appellee.
GIFFORDS LAW CENTER TO PREVENT GUN
VIOLENCE; BRADY CENTER TO PREVENT GUN
VIOLENCE; MARYLAND CHIEFS OF POLICE
ASSOCIATION; EVERYTOWN FOR GUN SAFETY,
Amici Supporting Appellee.
Appeal from the United States District Court for the
District of Maryland, at Baltimore. Ellen L.
Hollander, District Judge. (1:18-cv-01064-ELH)
Submitted: April 25, 2019

Decided: April 29, 2019

2a
Before FLOYD and QUATTLEBAUM, Circuit
Judges, and TRAXLER, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
David H. Thompson, Peter A. Patterson, Nicole J.
Moss, John D. Ohlendorf, COOPER & KIRK, PLLC,
Washington, D.C., for Appellants. Brian E. Frosh,
Attorney General, Mark H. Bowen, Assistant Attorney
General, OFFICE OF THE ATTORNEY GENERAL
OF MARYLAND, Pikesville, Maryland, for Appellee.
Unpublished opinions are not binding precedent in this
circuit.
PER CURIAM:
Brian Kirk Malpasso and Maryland State Rifle
and Pistol Association, Inc., appeal the district court’s
dismissal of their complaint alleging that §
5-306(a)(5)(ii) of the Maryland Code of Public Safety is
an unconstitutional burden on the Second
Amendment’s right to keep and bear arms. Malpasso
and the Association seek a declaratory judgment
declaring that § 5-306(a)(6)(ii) is unconstitutional and
an injunction precluding future enforcement of the
statute and requiring the State to issue handgun carry
licenses to Malpasso and the Association’s members.
The district court granted the State’s motion to dismiss
the complaint after Malpasso and the Association

3a
conceded that our ruling in Woollard v. Gallagher, 712
F.3d 865 (4th Cir. 2013), controlled.*
On appeal, Malpasso and the Association
acknowledge that this panel cannot overturn Woollard.
“A decision of a panel of this court becomes the law of
the circuit and is binding on other panels unless
overruled by a subsequent en banc opinion of this court
or a superseding contrary decision of the Supreme
Court.” United States v. Collins, 415 F.3d 304, 311 (4th
Cir. 2005) (internal quotation marks omitted).
Therefore, we affirm the district court’s dismissal of
the complaint. We dispense with oral argument
because the facts and legal contentions are adequately
presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

*

In Woollard, we held that assuming, without deciding, that
§ 5-306(a)(6)(ii)’s “good-and-substantial-reason” requirement
implicated Second Amendment protections, the provision did not
unconstitutionally infringe upon the rights granted by the Second
Amendment, as applied to the statute’s challenger. 712 F.3d at
882.

4a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Civil Action No. ELH-18-1064

BRIAN KIRK MALPASSO, et al,
Plaintiffs,
v.
WILLIAM M. PALLOZZI
Defendant.
MEMORANDUM1
Brian Kirk Malpasso and the Maryland State Rifle
and Pistol Association, Inc., plaintiffs, filed a
Complaint for Declaratory and Injunctive Relief
against William M. Pallozzi, in his official capacity as
the Secretary of Maryland’s Department of State
Police. ECF 1. Exhibits are appended to the suit.
Plaintiffs allege a violation of their rights under the
Second Amendment to the Constitution and seek, inter
alia, “a declaration that Maryland’s limitation of the
right to carry handguns to those who can satisfy
licensing officials that they have a ‘good and
substantial reason’ to exercise that right is

1

This case was originally assigned to Judge Marvin Garbis.
It was reassigned to me on September 5, 2018, due to Judge
Garbis’s retirement.

5a
unconstitutional under the Second and Fourteenth
Amendments to the United States Constitution.” Id. at
1. Plaintiffs also seek an injunction that would compel
the defendant to cease enforcement of the Maryland
law that purportedly limits plaintiffs’ constitutional
right to carry handguns outside the home. Id. at 1-2.
The Complaint contains one Count, asserting
deprivation of constitutional rights, pursuant to 42
U.S.C. § 1983. Id. at 8.
Defendant has moved to dismiss the suit under
Fed. R. Civ. P. 12(b)(6) (ECF 12), supported by a
memorandum (ECF 12-1) (collectively, the “Motion”).
Plaintiffs oppose the Motion. ECF 20.
The Court has also received amicus curiae briefs
from the following organizations: Everytown For Gun
Safety (ECF 16), with an Appendix (ECF 17); Giffords
Law Center To Prevent Gun Violence (ECF 19); and
the National Rifle Association of America, Inc. (ECF
21-1), with an Appendix (ECF 21-2).
The issues have been fully briefed. No hearing is
necessary. See Local Rule 105.6.
Defendants assert that plaintiffs fail to state a
claim upon which relief can be granted because there
is a controlling decision of the United States Court of
Appeals for the Fourth Circuit, holding that
Maryland’s application of the “good and substantial
reason” requirement does not violate the Second
Amendment. ECF 12-1 at 1, 4-5 (citing Woollard v.
Gallagher, 712 F.3d 865 (4th Cir. 2013)).
Plaintiffs agree that Woollard is controlling. In
their Complaint (ECF 1, ¶ 6), they assert:

6a
Plaintiffs acknowledge that the result they
seek is contrary to Woollard v. Gallagher, 712
F.3d 865 (4th Cir. 2013), but, for the reasons
explained in Wrenn v. District of Columbia,
864 F.3d 650 (D.C. Cir. 2017), that case was
wrongly decided. They therefore institute this
litigation to vindicate their Second
Amendment rights and to seek to have
Woollard overruled.
And, in their Opposition, plaintiffs state, ECF 20
at 1: “To be sure, as Maryland points out, the Fourth
Circuit—in precedent we concede is binding on this
Court at this stage in the litigation—has upheld
Maryland’s ‘good and substantial reason’ limit.”
The Fourth Circuit’s decision in Woollard is
controlling here. A discussion of the merits of the case
is unnecessary, as Woollard requires the Court to
grant defendant’s Motion to Dismiss.
An Order follows.
Date: October 15, 2018
/s/
Ellen L. Hollander
United States District Judge

7a
APPENDIX C
CONSTITUTIONAL PROVISIONS, STATUTES,
AND REGULATIONS INVOLVED
U.S. Const. amend. II
A well regulated Militia, being necessary to the
security of a free State, the right of the people to keep
and bear Arms, shall not be infringed.
U.S. Const. amend. XIV, § 1
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they
reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
Md. Code Ann., Crim. Law § 4-203
Wearing, carrying, or transporting handgun
Prohibited
(a)(1) Except as provided in subsection (b) of this
section, a person may not:
(i) wear, carry, or transport a handgun,
whether concealed or open, on or about the
person;
(ii) wear, carry, or knowingly transport a
handgun, whether concealed or open, in a
vehicle traveling on a road or parking lot

8a
generally used by the public, highway,
waterway, or airway of the State;
(iii) violate item (i) or (ii) of this paragraph
while on public school property in the State;
(iv) violate item (i) or (ii) of this paragraph
with the deliberate purpose of injuring or
killing another person; or
(v) violate item (i) or (ii) of this paragraph
with a handgun loaded with ammunition.
(2) There is a rebuttable presumption that a person
who transports a handgun under paragraph (1)(ii) of
this subsection transports the handgun knowingly.
Exceptions
(b) This section does not prohibit:
(1) the wearing, carrying, or transporting of a
handgun by a person who is authorized at the
time and under the circumstances to wear,
carry, or transport the handgun as part of the
person's official equipment, and is:
(i) a law enforcement official of the
United States, the State, or a county or city
of the State;
(ii) a member of the armed forces of the
United States or of the National Guard on
duty or traveling to or from duty;
(iii) a law enforcement official of another
state or subdivision of another state
temporarily in this State on official
business;

9a
(iv) a correctional officer or warden of a
correctional facility in the State;
(v) a sheriff or full-time assistant or
deputy sheriff of the State; or
(vi) a temporary or part-time sheriff's
deputy;
(2) the wearing, carrying, or transporting of a
handgun, in compliance with any limitations
imposed under § 5-307 of the Public Safety
Article, by a person to whom a permit to wear,
carry, or transport the handgun has been
issued under Title 5, Subtitle 3 of the Public
Safety Article;
(3) the carrying of a handgun on the person or
in a vehicle while the person is transporting
the handgun to or from the place of legal
purchase or sale, or to or from a bona fide
repair shop, or between bona fide residences of
the person, or between the bona fide residence
and place of business of the person, if the
business is operated and owned substantially
by the person if each handgun is unloaded and
carried in an enclosed case or an enclosed
holster;
(4) the wearing, carrying, or transporting by
a person of a handgun used in connection with
an organized military activity, a target shoot,
formal or informal target practice, sport
shooting event, hunting, a Department of
Natural Resources-sponsored firearms and
hunter safety class, trapping, or a dog
obedience training class or show, while the

10a
person is engaged in, on the way to, or
returning from that activity if each handgun is
unloaded and carried in an enclosed case or an
enclosed holster;
(5) the moving by a bona fide gun collector of
part or all of the collector's gun collection from
place to place for public or private exhibition if
each handgun is unloaded and carried in an
enclosed case or an enclosed holster;
(6) the wearing, carrying, or transporting of a
handgun by a person on real estate that the
person owns or leases or where the person
resides or within the confines of a business
establishment that the person owns or leases;
(7) the wearing, carrying, or transporting of a
handgun by a supervisory employee:
(i)

in the course of employment;

(ii) within the confines of the business
establishment in which the supervisory
employee is employed; and
(iii) when so authorized by the owner or
manager of the business establishment;
(8) the carrying or transporting of a signal
pistol or other visual distress signal approved
by the United States Coast Guard in a vessel
on the waterways of the State or, if the signal
pistol or other visual distress signal is
unloaded and carried in an enclosed case, in a
vehicle; or

11a
(9) the wearing, carrying, or transporting of a
handgun by a person who is carrying a court
order requiring the surrender of the handgun,
if:
(i)

the handgun is unloaded;

(ii) the person has notified the law
enforcement unit, barracks, or station that
the handgun is being transported in
accordance with the court order; and
(iii) the person transports the handgun
directly to the law enforcement unit,
barracks, or station.
Penalty
(c)(1) A person who violates this section is guilty of a
misdemeanor and on conviction is subject to the
penalties provided in this subsection.
(2) If the person has not previously been
convicted under this section, § 4-204 of this
subtitle, or § 4-101 or § 4-102 of this title:
(i) except as provided in item (ii) of this
paragraph, the person is subject to
imprisonment for not less than 30 days and
not exceeding 3 years or a fine of not less
than $250 and not exceeding $2,500 or both;
or
(ii) if the person violates subsection
(a)(1)(iii) of this section, the person shall be
sentenced to imprisonment for not less than
90 days.

12a
(3)(i) If the person has previously been
convicted once under this section, § 4-204 of
this subtitle, or § 4-101 or § 4-102 of this title:
1. except as provided in item 2 of this
subparagraph, the person is subject to
imprisonment for not less than 1 year and
not exceeding 10 years; or
2. if the person violates subsection (a)(1)(iii)
of this section, the person is subject to
imprisonment for not less than 3 years and
not exceeding 10 years.
(ii) 1. Except as provided in subsubparagraph 2 of this subparagraph, the court
may not impose less than the applicable
minimum sentence provided under
subparagraph (i) of this paragraph.
2. If the person violates subsection
(a)(1)(v) of this section, the court may not
suspend any part of or impose less than the
applicable mandatory minimum sentence
provided under subparagraph (i) of this
paragraph.
(iii)
Except as provided in § 4-305 of the
Correctional Services Article, if the person
violates subsection (a)(1)(v) of this section, the
person is not eligible for parole during the
mandatory minimum sentence.
(iv)
A mandatory minimum sentence under
subparagraph (ii)2 of this paragraph may not be
imposed unless the State's Attorney notifies the
defendant in writing at least 30 days before trial of

13a
the State's intention to seek the mandatory
minimum sentence.
(4)(i) If the person has previously been
convicted more than once under this section, §
4-204 of this subtitle, or § 4-101 or § 4-102 of
this title, or of any combination of these
crimes:
1.
except as provided in item 2 of this
subparagraph, the person is subject to
imprisonment for not less than 3 years and
not exceeding 10 years; or
2. A. if the person violates subsection
(a)(1)(iii) of this section, the person is subject
to imprisonment for not less than 5 years and
not exceeding 10 years; or
B.
if the person violates subsection
(a)(1)(iv) of this section, the person is
subject to imprisonment for not less than
5 years and not exceeding 10 years.
(ii) 1. E x c e p t
as
provided
in
subsubparagraph 2 of this subparagraph,
the court may not impose less than the
applicable minimum sentence provided
under subparagraph (i) of this paragraph.
2. If the person violates subsection
(a)(1)(v) of this section, the court may
not suspend any part of or impose less
than the applicable mandatory
minimum sentence provided under
subparagraph (i) of this paragraph.

14a
(iii) Except as provided in § 4-305 of the
Correctional Services Article, if the person
violates subsection (a)(1)(v) of this section,
the person is not eligible for parole during
the mandatory minimum sentence.
(iv) A mandatory minimum sentence under
subparagraph (ii)2 of this paragraph may not
be imposed unless the State's Attorney
notifies the defendant in writing at least 30
days before trial of the State's intention to
seek the mandatory minimum sentence.
Md. Code Ann., Pub. Safety § 5-301
Definitions
In general
(a) In this subtitle the following words have the
meanings indicated.
Board
(b) “Board” means the Handgun Permit Review Board.
Handgun
(c) “Handgun” has the meaning stated in § 4-201 of
the Criminal Law Article.
Permit
(d) “Permit” means a permit issued by the Secretary
to carry, wear, or transport a handgun.
Qualified handgun instructor
(e) “Qualified handgun instructor” has the meaning
stated in § 5-101 of this title.

15a
Secretary
(f) “Secretary” means the Secretary of State Police or
the Secretary's designee.
Md. Code Ann., Pub. Safety
§ 5-303 Permit required
A person shall have a permit issued under this subtitle
before the person carries, wears, or transports a
handgun.
Md. Code Ann., Pub. Safety § 5-305
Criminal history records check
“Central Repository” defined
(a) In this section, “Central Repository” means the
Criminal Justice Information System Central
Repository of the Department of Public Safety and
Correctional Services.
Application required
(b) Except as provided in subsection (g) of this section,
the Secretary shall apply to the Central Repository for
a State and national criminal history records check for
each applicant for a permit.
Contents of application
(c) As part of the application for a criminal history
records check, the Secretary shall submit to the
Central Repository:
(1) two complete sets of the applicant's legible
fingerprints taken on forms approved by the
Director of the Central Repository and the
Director of the Federal Bureau of
Investigation;

16a
(2) the fee authorized under § 10-221(b)(7) of
the Criminal Procedure Article for access to
Maryland criminal history records; and
(3) the mandatory processing fee required by
the Federal Bureau of Investigation for a
national criminal history records check.
Information forwarded to applicant and State Police
(d) In accordance with §§ 10-201 through 10-234 of the
Criminal Procedure Article, the Central Repository
shall forward to the applicant and the Secretary a
printed statement of the applicant's criminal history
record information.
Restrictions on information
(e) Information obtained from the Central Repository
under this section:
(1) is confidential
disseminated; and

and

may

not

be

(2) shall be used only for the licensing purpose
authorized by this section.
Subject may contest contents
(f) The subject of a criminal history records check
under this section may contest the contents of the
printed statement issued by the Central Repository as
provided in § 10-223 of the Criminal Procedure Article.
Employee of armored car company
(g) For an employee of an armored car company who
is an applicant for a permit, the Secretary may accept
a criminal background investigation performed on
behalf of the armored car company in place of the

17a
criminal history records check required by this section
if:
(1) the criminal background investigation
meets the minimum requirements established
by the Department of State Police; and
(2) the Secretary performs a cursory check to
verify the facts listed in the criminal
background investigation.
Md. Code Ann., Pub. Safety § 5-306
Qualifications for permit
In general
(a) Subject to subsection (c) of this section, the
Secretary shall issue a permit within a reasonable
time to a person who the Secretary finds:
(1) is an adult;
(2)(i) has not been convicted of a felony or of a
misdemeanor for which a sentence of
imprisonment for more than 1 year has been
imposed; or
(ii) if convicted of a crime described in
item (i) of this item, has been pardoned
or has been granted relief under 18
U.S.C. § 925(c);
(3) has not been convicted of a crime involving
the possession, use, or distribution of a
controlled dangerous substance;
(4) is not presently an alcoholic, addict, or
habitual user of a controlled dangerous
substance unless the habitual use of the

18a
controlled dangerous substance is under
legitimate medical direction;
(5) except as provided in subsection (b) of this
section, has successfully completed prior to
application and each renewal, a firearms
training course approved by the Secretary that
includes:
(i) 1. for an initial application, a
minimum of 16 hours of instruction by a
qualified handgun instructor; or
2. for a renewal application, 8
hours of instruction by a qualified handgun
instructor;
(ii) classroom instruction on:
1. State firearm law;
2. home firearm safety; and
3. handgun mechanisms
operation; and

and

(iii) a firearms qualification component
that demonstrates the applicant's
proficiency and use of the firearm; and
(6) based on an investigation:
(i) has not exhibited a propensity for
violence or instability that may
reasonably render the person's possession
of a handgun a danger to the person or to
another; and
(ii) has good and substantial reason to
wear, carry, or transport a handgun, such

19a
as a finding that the permit is necessary as
a reasonable precaution against apprehended danger.
Exemption from completing certified firearms training
course
(b) An applicant for a permit is not required to
complete a certified firearms training course under
subsection (a) of this section if the applicant:
(1) is a law enforcement officer or a person
who is retired in good standing from service
with a law enforcement agency of the United
States, the State, or any local law enforcement
agency in the State;
(2) is a member, retired member, or honorably
discharged member of the armed forces of the
United States or the National Guard;
(3) is a qualified handgun instructor; or
(4) has completed a firearms training course
approved by the Secretary.
Applicants under the age of 30
(c) An applicant under the age of 30 years is qualified
only if the Secretary finds that the applicant has not
been:
(1) committed to a detention, training, or
correctional institution for juveniles for longer
than 1 year after an adjudication of
delinquency by a juvenile court; or
(2) adjudicated delinquent by a juvenile court
for:

20a
(i) an act that would be a crime of
violence if committed by an adult;
(ii) an act that would be a felony in this
State if committed by an adult; or
(iii) an act that would be a misdemeanor
in this State that carries a statutory
penalty of more than 2 years if
committed by an adult.
Handgun qualification licenses
(d) The Secretary may issue a handgun qualification
license, without an additional application or fee, to a
person who:
(1) meets the requirements for issuance of a
permit under this section; and
(2) does not have a handgun qualification
license issued under § 5-117.1 of this title.
Md. Code Ann., Pub. Safety § 5-307
Scope of permit
In general
(a) A permit is valid for each handgun legally in the
possession of the person to whom the permit is issued.
Limitations
(b) The Secretary may limit the geographic area,
circumstances, or times of the day, week, month, or
year in which a permit is effective.

21a
Md. Code Ann., Pub. Safety § 5-308
Possession of permit required
A person to whom a permit is issued or renewed shall
carry the permit in the person's possession whenever
the person carries, wears, or transports a handgun.
Md. Code Ann., Pub. Safety § 5-309
Term and renewal of permit
Term of permit
(a) Except as provided in subsection (d) of this section,
a permit expires on the last day of the holder's birth
month following 2 years after the date the permit is
issued.
Renewal of permit
(b) Subject to subsection (c) of this section, a permit
may be renewed for successive periods of 3 years each
if, at the time of an application for renewal, the
applicant possesses the qualifications for the issuance
of a permit and pays the renewal fee stated in this
subtitle.
Fingerprint requirement
(c) A person who applies for a renewal of a permit is
not required to be fingerprinted unless the Secretary
requires a set of the person's fingerprints to resolve a
question of the person's identity.
Alternative expiration date
(d) The Secretary may establish an alternative
expiration date for a permit to coincide with the
expiration of a license, certification, or commission for:

22a
(1) a private detective under Title 13 of the
Business Occupations and Professions Article;
(2) a security guard under Title 19 of the
Business Occupations and Professions Article;
or
(3) a special police officer under § 3-306 of this
article.
Md. Code Ann., Pub. Safety § 5-310
Revocations
In general
(a) The Secretary may revoke a permit on a finding
that the holder:
(1) does not meet the qualifications described
in § 5-306 of this subtitle; or
(2) violated § 5-308 of this subtitle.
Return of permit
(b) A holder of a permit that is revoked by the
Secretary shall return the permit to the Secretary
within 10 days after receipt of written notice of the
revocation.
Md. Code Ann., Pub. Safety § 5-311
Informal review of Secretary's action
Request for informal review
(a) A person who is denied a permit or renewal of a
permit or whose permit is revoked or limited may
request the Secretary to conduct an informal review by
filing a written request within 10 days after receipt of
written notice of the Secretary's initial action.

23a
Personal interview
(b) An informal review:
(1) may include a personal interview of the
person who requested the informal review; and
(2) is not subject to Title 10, Subtitle 2 of the
State Government Article.
Action by Secretary
(c) In an informal review, the Secretary shall sustain,
reverse, or modify the initial action taken and notify
the person who requested the informal review of the
decision in writing within 30 days after receipt of the
request for informal review.
Request for review by Board
(d) A person need not file a request for an informal
review under this section before requesting review
under § 5-312 of this subtitle.
Md. Code Ann., Pub. Safety § 5-312
Action by Board
Request for review authorized
(a)(1) A person who is denied a permit or renewal of a
permit or whose permit is revoked or limited may
request the Board to review the decision of the
Secretary by filing a written request with the Board
within 10 days after receipt of written notice of the
Secretary's final action.
(2) A person whose application for a permit or
renewal of a permit is not acted on by the
Secretary within 90 days after submitting the
application to the Secretary may request a hearing

24a
before the Board by filing a written request with
the Board.
Form of review
(b) Within 90 days after receiving a request to review
a decision of the Secretary, the Board shall:
(1) review the record developed by the
Secretary; and
(2) conduct a hearing.
Evidence
(c) The Board may receive and consider additional
evidence submitted by a party in conducting a review
of the decision of the Secretary.
Decision by Board
(d)(1) Based on the Board's consideration of the record
and any additional evidence, the Board shall sustain,
reverse, or modify the decision of the Secretary.
(2) Within 60 days after the last hearing in the
matter conducted by the Board, the Board shall submit
in writing to the applicant, the holder of the permit,
and the Secretary the reasons for the decision of the
Board.
Appeal of decision
(e)(1) The applicant, the holder of the permit, or the
Secretary may appeal the decision of the Board to the
Office of Administrative Hearings within 30 days after
the issuance of the Board's reasons under subsection
(d)(2) of this section.

25a
(2) Within 60 days after the receipt of a
request from the applicant, the holder of the
permit, or the Secretary, the Office of
Administrative Hearings shall schedule and
conduct a de novo hearing on the appeal, at
which witness testimony and other evidence
may be provided.
(3) Within 90 days after the conclusion of the
last hearing on the matter, the Office of
Administrative Hearings shall issue a finding
of facts and a decision.
(4) A party that is aggrieved by the decision of
the Office of Administrative Hearings may
appeal the decision to the circuit court.
Administrative procedures
(f)(1) Subject to subsections (d) and (e) of this section,
any hearing and any subsequent proceedings of
judicial review shall be conducted in accordance with
Title 10, Subtitle 2 of the State Government Article.
(2) N o t w i t h s t a n d i n g p a r a g r a p h ( 1 ) o f t h i s
subsection, a court may not order the issuance or
renewal of a permit or alter a limitation on a permit
pending a final determination of the proceeding.
Annual report
(g) On or before December 1 each year, the Board
shall report to the Governor and, in accordance with §
2-1246 of the State Government Article, the General
Assembly:

26a
(1) the number of appeals of decisions by the
Secretary that have been filed with the Board
within the previous year;
(2) the number of decisions by the Secretary
that have been sustained, modified, or
reversed by the Board within the previous
year;
(3) the number of appeals that are pending;
and
(4) the number of appeals that have been
withdrawn within the previous year.
Application of Open Meeting Law
(h) The Board is subject to Title 3 (Open Meetings Act)
of the General Provisions Article.
Md. Code Ann., Pub. Safety § 5-313
Failure to return revoked permit
Prohibited
(a) A person may not fail to return a revoked permit.
Penalty
(b) A person who violates this section is guilty of a
misdemeanor and on conviction is subject to
imprisonment not exceeding 1 year or a fine of not less
than $100 or exceeding $1,000 or both.
Md. Code Regs. § 29.03.02.02
Generally
A. Pursuant to Public Safety Article, §5-306(a),
Annotated Code of Maryland, the Secretary shall issue
handgun permits under specified conditions.

27a
B. Unless otherwise provided by law, a person shall
have a valid permit in their possession to carry, wear,
or transport a handgun.
C. A valid permit must satisfy all the requirements
set forth in this chapter, including any limitations or
restrictions imposed by the Secretary.
D. A permit holder may not wear, carry, or transport
a handgun while under the influence of alcohol or
drugs.
E. Except as provided in §F of this regulation, all
valid permits must be issued by the Secretary.
F. An armored car driver's permit from another state
is valid if the driver is on duty in Maryland.
Md. Code Regs. § 29.03.02.03
Eligibility
A. Qualifications. In accordance with Public Safety
Article, §5-306, Annotated Code of Maryland, a person
is eligible for issuance of a handgun permit only if the
person:
(1) Is an adult;
(2) Is not prohibited from possessing a
handgun under COMAR 29.03.01.03 or
otherwise prohibited from purchasing or
possessing a handgun under federal or State
law;
(3) Has not been convicted of a felony or
misdemeanor for which a sentence of
imprisonment for more than 1 year has been
imposed, unless the person has been pardoned

28a
or the United States Attorney General has
granted relief;
(4) Has not been convicted of a crime
involving the possession, use, or distribution of
a controlled dangerous substance;
(5) Is not presently an alcoholic, addict, or
habitual user of a controlled dangerous
substance, unless the habitual use of a
controlled dangerous substance is under
legitimate medical direction;
(6) Has not exhibited propensity for violence
or instability that may reasonably render the
person's possession of a handgun a danger to
the person or another;
(7) Has a good and substantial reason to wear,
carry, or transport a handgun; and
(8) If younger than 30 years old, has not been
committed to a detention, training, or
correctional institution for juveniles for longer
than 1 year after an adjudication of
delinquency by a juvenile court.
B. Investigation Criteria. The following areas will be
a part of the investigation of every applicant and will
be considered by the Secretary in determining whether
a permit will be issued:
(1) Age of the applicant;
(2) Occupation, profession, or employment of
the applicant;
(3) Verification
qualifications;

of

the

applicant's

29a
(4) Verification of the information supplied by
the applicant in the application;
(5) Information received from personal
references and other persons interviewed;
(6) Information received from business or
employment references as may be necessary in
the discretion of the investigator;
(7) Criminal record of applicant, including any
juvenile record for an applicant younger than
30 years old;
(8) Medical history of applicant as it may
pertain to the applicant's fitness to carry,
wear, or transport a handgun;
(9) Psychiatric or psychological background of
the applicant as it may pertain to the
applicant's fitness to carry, wear, or transport
a handgun;
(10) The applicant's propensity for violence or
instability which could reasonably render the
applicant's wearing, carrying, or transporting
of a handgun a danger to the applicant or to
others;
(11) The applicant's use of intoxicating
beverages and drugs;
(12) The reasons given by the applicant for
carrying, wearing, or transporting a handgun,
and whether those reasons are good and
substantial; and

30a
(13) Whether the permit is necessary as a
reasonable precaution for the applicant
against apprehended danger.

31a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Civil Action No. 18-1064

BRIAN KIRK MALPASSO
39034 Cooney Neck Road
Mechanicsville, St. Mary’s County,
MD 20659, and
MARYLAND STATE RIFLE AND PISTOL
ASSOCIATION, INC.,
307 W. Pennsylvania Avenue
Towson, Baltimore County, MD 21204
Plaintiffs,
v.
WILLIAM M. PALLOZZI, in his official capacity as
Maryland Secretary of State Police,
Department of State Police
1201 Reisterstown Road
Pikesville, Baltimore County, MD 21208,
Defendant.
COMPLAINT FOR DECLARATORY
AND INJUNCTIVE RELIEF
Plaintiffs Brian Kirk Malpasso and the Maryland
State Rifle and Pistol Association, Inc. (collectively
“Plaintiffs”), by and through the undersigned
attorneys, file this Complaint against the

32a
above-captioned Defendant, in his official capacity as
the Secretary of Maryland’s Department of State
Police. Plaintiffs seek declaratory and injunctive relief:
a declaration that Maryland’s limitation of the right to
carry handguns to those who can satisfy licensing
officials that they have a “good and substantial reason”
to exercise that right is unconstitutional under the
Second and Fourteenth Amendments to the United
States Constitution, and an injunction compelling
Defendant to refrain from enforcing that invalid limit
and to issue handgun carry licenses to Plaintiff
Malpasso and members of Plaintiff Maryland State
Rifle and Pistol Association or to otherwise allow such
persons to exercise their right to carry handguns
outside the home. In support of their Complaint
against Defendant, Plaintiffs hereby allege as follows:
INTRODUCTION
1. The Second Amendment to the United States
Constitution guarantees “the right of the people to
keep and bear Arms.” U.S. CONST. amend. II. When
the People, by enacting that amendment, enshrined in
their fundamental charter the right to “carry weapons
in case of confrontation” for the “core lawful purpose of
self-defense,” District of Columbia v. Heller, 554 U.S.
570, 592, 630 (2008), they did not mean to leave the
freedom to exercise that right at the mercy of the very
government officials whose hands they sought to bind.
No, “[t]he very enumeration of the right takes out of
the hands of government . . . the power to decide on a
case-by-case basis whether the right is really worth
insisting upon.” Id. at 634.
2. In defiance of that constitutional guarantee,
Maryland has seized precisely the power forbidden it

33a
by the Second Amendment: the power to decide, on a
case-by-case basis, whether an applicant for a license
to “carry weapons in case of confrontation,” id. at 592,
has, in the State’s estimation, shown a sufficiently
“good and substantial reason” that a license should
issue, MD. CODE PUB. SAFETY § 5-306(a)(6)(ii).
3. Worse still, Maryland has made clear that a
general desire to carry a handgun for the purpose of
self-defense—“the central component” of the Second
Amendment, Heller, 554 U.S. at 599 (emphasis
added)—is not a sufficiently good reason to exercise
the right. Instead, according to Maryland, an ordinary
citizen must provide documented evidence of concrete
threats or recent assaults to obtain a permit from the
state to carry a handgun in public. That restriction is
akin to a state law concluding that the general desire
to advocate for lawful political change is not a
sufficiently “good and substantial reason” to exercise
the right to free speech, and it cuts to the very core of
the Second Amendment, no less than such a restriction
would gut the First.
4. Indeed, the practical effect of Maryland’s “good
and substantial reason” requirement is to make it
wholly illegal for typical law-abiding citizens to carry
handguns in public—for by definition, these ordinary
citizens cannot make the atypical showing that they
face a specific, documented threat to their safety.
5. Plaintiff Malpasso is an ordinary, law-abiding
citizen of Maryland who wishes to carry a handgun
outside his home for the purpose of self-defense. He
has passed all required background checks, completed
all required firearm training courses, and met every
other qualification imposed by Maryland on the

34a
eligibility for a permit to carry handguns in public—
except that like the vast majority of ordinary,
law-abiding Maryland residents, he cannot document
a specific clear and present threat to his safety.
Accordingly, Defendant determined that Mr. Malpasso
has not shown a “good and substantial reason” why he
should be allowed to exercise his Second Amendment
rights, and he denied his permit application. That
result simply cannot be squared with the rights
guaranteed by the Second Amendment.
6. Plaintiffs acknowledge that the result they
seek is contrary to Woollard v. Gallagher, 712 F.3d 865
(4th Cir. 2013), but, for the reasons explained in
Wrenn v. District of Columbia, 864 F.3d 650 (D.C. Cir.
2017), that case was wrongly decided. They therefore
institute this litigation to vindicate their Second
Amendment rights and to seek to have Woollard
overruled.
JURISDICTION AND VENUE
7. This Court has subject-matter jurisdiction over
Plaintiffs’ claim under 28 U.S.C. §§ 1331 and 1343.
8. Plaintiffs seek remedies under 28 U.S.C. §§
1651, 2201, and 2202 and 42 U.S.C. §§ 1983 and 1988.
9. Venue is proper in this Court under 28 U.S.C.
§ 1391(b)(1) & (b)(2).
PARTIES
10. Plaintiff Brian Kirk Malpasso is a citizen of
the United States and a resident and citizen of the
State of Maryland. He resides at 39034 Cooney Neck
Road, Mechanicsville, MD 20659.

35a
11. Plaintiff Maryland State Rifle and Pistol
Association, Inc. (“MSRPA”) is a group organized to
defend the right of Maryland residents to keep and
bear arms. The Maryland restrictions on the public
carrying of handguns at issue in this case are thus a
direct affront to MSRPA’s central mission. MSRPA has
thousands of members who reside in Maryland. Its
official address is 307 W. Pennsylvania Avenue,
Towson, MD 21204. Plaintiff Malpasso is a member of
MSRPA.
12. Defendant William M. Pallozzi is the Maryland
Secretary of State Police. As Secretary, he exercises,
delegates, or supervises all the powers and duties of
the Maryland Department of State Police. Under MD.
CODE PUB. SAFETY § 5-301 et seq., Defendant Pallozzi
is responsible for executing, or delegating and
supervising the execution of, Maryland’s laws
governing the carrying of handguns in public. His
official address is Department of State Police, 1201
Reisterstown Road, Pikesville, MD 21208. He is being
sued in his official capacity.
FACTUAL ALLEGATIONS
Maryland’s “Good and Substantial Reason”
Requirement
13. Maryland law generally forbids any person to
“wear, carry, or transport a handgun” in public,
“whether concealed or open.” MD. CODE CRIM. LAW §
4-203(a)(1). First time offenders who violate this
prohibition are subject to imprisonment for up to three
years, a fine of up to $2,500, or both. Id. §
4-203(c)(2)(i). Aggravated offenders may be sentenced
to up to 10 years in prison. Id. § 4-203(c)(4)(i).

36a
14. In addition to other minor exceptions for law
enforcement officers, active-duty members of the U.S.
Armed Forces, and the like, Maryland law allows an
individual to carry a handgun in public if he first
obtains “a permit to wear, carry, or transport the
handgun” from the Maryland Secretary of State Police,
Defendant Pallozzi. Id. § 4-203(b)(2); see also MD.
CODE PUB. SAFETY § 5-303.
15. To be eligible for such a permit (a “Handgun
Carry Permit”), an applicant must satisfy numerous
criteria. For example, the applicant must be an adult,
must not have been convicted of any felony or any
misdemeanor involving controlled substances, and
must not be an alcoholic or addict to any controlled
substance. MD. CODE PUB. SAFETY § 5-306(a). An
applicant must also pass a background check, id. §
5305, must satisfy the Secretary, after investigation,
that the applicant “has not exhibited a propensity for
violence or instability that may reasonably render the
person’s possession of a handgun a danger to the
person or to another,” id. § 5-306(a)(6)(i), and must
have completed an extensive firearms safety training
course, id. § 5-306(a)(5).
16. In addition to these rigorous screening and
training requirements, the Secretary may issue a
handgun carry permit only if he determines that the
applicant “has good and substantial reason to wear,
carry, or transport a handgun, such as a finding that
the permit is necessary as a reasonable precaution
against apprehended danger.” Id. § 5-306(a)(6)(ii).
17. Defendant Pallozzi has issued regulations
implementing his power and authority over handgun
carry permits. See MD. CODE REGS. 29.03.01 et seq.

37a
Those regulations provide that the investigation into
an application for a handgun carry permit must
determine “[t]he reasons given by the applicant for
carrying, wearing, or transporting a handgun, and
whether those reasons are good and substantial,” and
“[w]hether the permit is necessary as a reasonable
precaution for the applicant against apprehended
danger.” Id. 29.03.02.03.B(12), (13).
18. Defendant Pallozzi has also issued an
application form that applicants must use to apply for
a Handgun Carry Permit. The instructions for that
form state that an ordinary law-abiding citizen
seeking to carry a handgun in public for “[p]ersonal
[p]rotection” must provide “documented evidence of
recent threats, robberies, and/or assaults, supported by
official police reports or notarized statements from
witnesses.” See Maryland Department of State Police,
Licensing Division Application at 2 (attached as
Exhibit 1). And Maryland state courts have
decided—in opinions referenced and included in the
Department of State Police’s webpage concerning
Handgun Application Permits, https://goo.gl/M1p5A1
—that living in a high-crime neighborhood or being
subject to “vague threat[s]” are not sufficient “good and
substantial reasons” to obtain a permit—since if they
were, “[e]ach person could decide for himself or herself
that he or she was in danger.” Snowden v. Handgun
Permit Review Bd., 413 A.2d 295, 298 (Md. Ct. Spec.
App. 1980) (emphasis added); see also Scherr v.
Handgun Permit Review Bd., 880 A.2d 1137, 1148–49
(Md. Ct. Spec. App. 2005).
19. Accordingly, typical law-abiding citizens of
Maryland—the vast majority of responsible citizens

38a
who cannot provide “documented evidence” of specific,
recent threats to their safety—effectively remain
subject to a flat ban on carrying handguns outside the
home.
Defendant’s Refusal to Issue Plaintiffs
Handgun Carry Permits
20. Plaintiff Malpasso is an adult citizen and
resident of Maryland. He is not a law enforcement
official or a member of the armed forces, and he does
not fall within any of the other exceptions enumerated
in MD. CODE CRIM. LAW § 4-203(b)(1) to Maryland’s
ban on carrying handguns in public.
21. Plaintiff Malpasso does, however, possess all of
the qualifications to obtain a Handgun Carry Permit
that are enumerated in MD. CODE PUB. SAFETY §§
5-306(a)(1)–(5). He is an adult, he has not been
convicted of any felony, misdemeanor carrying a
sentence of more than a year imprisonment, or crime
involving controlled substances; he is not an alcoholic,
addict, or habitual user of a controlled substance; he
has successfully completed the firearms training
course required by Section 5-306(a)(5); and he has
passed the background check required by Section
5-305.
22. Plaintiff Malpasso does not have any concrete
evidence of specific threats to his safety. He does,
however, desire to carry a handgun in public for the
purpose of self-defense. Mr. Malpasso lawfully owns
several handguns which he keeps in his home to
defend himself and his family, and he would carry a
handgun for self-defense when he is in public, were it

39a
not for Defendant’s enforcement of Maryland’s ban on
the public carrying of handguns.
23. On or about January 7, 2018, Plaintiff
Malpasso applied to Defendant Pallozzi for a permit to
carry a handgun in public. Application of Brian Kirk
Malpasso for a Handgun Permit (Jan. 7, 2018)
(attached as Exhibit 2).
24. After investigation, Defendant Pallozzi denied
Plaintiff Malpasso’s application. Maryland State
Police, Notification of Denial (Mar. 23, 2018) (attached
as Exhibit 3). Defendant Pallozzi did not determine
that Mr. Malpasso has ever “exhibited a propensity for
violence or instability,” MD. CODE PUB. SAFETY §
5-306(a)(6)(i); but he concluded that Mr. Malpasso has
no “good and substantial reason” to carry a handgun in
public, because he did not provide evidence of any
concrete, present fear for his safety, such as
harassment, stalking, or documented threats of
violence. See Exhibit 3 at 1.
25. In light of Defendant’s denial of his
application, Plaintiff Malpasso continues to refrain
from carrying a handgun outside the home for
self-defense in Maryland. Plaintiff Malpasso would
carry a handgun in public for self-defense in Maryland
where it lawful for him to do so.
26. MSRPA has at least one member who has had
an application for a Handgun Carry Permit denied, by
Defendant Pallozzi, solely for failure to satisfy the
“good and substantial reason” requirement. But for
Defendant’s continued enforcement of the Maryland
laws and regulations set forth above, that member

40a
would forthwith carry a handgun outside the home for
self-defense.
COUNT ONE
42 U.S.C. § 1983 Action for Depravation
of Plaintiffs’ Rights under U.S. CONST.
amends. II and XIV
27. Plaintiffs incorporate by reference
allegations of the preceding paragraphs.

the

28. The Second Amendment’s guarantee of “the
right of the people to keep and bear Arms” secures to
law-abiding, responsible, adult citizens the
fundamental constitutional right to bear arms outside
the home. U.S. CONST. amend. II.
29. This Second Amendment right to bear arms in
public applies against the State of Maryland under
U.S. CONST. amend. XIV.
30. This Second Amendment right to bear arms in
public cannot be subject to a government official’s
discretionary determination of whether a law-abiding
citizen has a “good and substantial reason” to exercise
that right.
31. A government restriction that limits the right
to bear arms in public to only those few, favored
citizens who can demonstrate a specific, clear, and
present threat to their safety effectively operates as a
flat ban on the carrying of handguns by typical
law-abiding citizens, who by definition cannot
demonstrate this kind of atypical need to bear arms.
32. By infringing the Second Amendment right to
bear arms in public in these ways, the Maryland laws

41a
and regulations discussed in the foregoing allegations
violate the Second Amendment, which applies to
Defendant by operation of the Fourteenth Amendment,
both facially and as applied to Plaintiff Malpasso and
members of Plaintiff MSRPA, and they are therefore
invalid.
PRAYER FOR RELIEF
33. WHEREFORE, Plaintiffs pray for an order and
judgment:
a. Declaring that Maryland’s “good and
substantial reason” requirement violates the Second
and Fourteenth Amendments and is thus devoid of any
legal force or effect;
b. Enjoining Defendant and his employees
and agents from denying handgun carry permits to
applicants on the basis of Maryland’s “good and
substantial reason” requirement;
c. Enjoining Defendant and his employees
and agents from enforcing the Maryland laws and
regulations establishing and defining the “good and
substantial reason” requirement, including MD. CODE
PUB. SAFETY § 5-306(a)(6)(ii) and MD. CODE REGS.
29.03.02.03.B(12) & (13);
d. Ordering Defendant and his employees and
agents to issue handgun carry permits to Plaintiff
Malpasso and members of Plaintiff MSRPA;
e. Awarding Plaintiffs their reasonable costs,
including attorneys’ fees, incurred in bringing this
action, pursuant to 42 U.S.C. § 1988; and

42a
f. Granting such other and further relief as
this Court deems just and proper.
Dated: April 12, 2018

Respectfully submitted,
s/ Nicole J. Moss
Nicole J. Moss, Bar No. 20222
Attorney of Record
David H. Thompson*
Peter A. Patterson*
John D. Ohlendorf*
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
(202) 220-9601 (fax)
nmoss@cooperkirk.com
*Pro hac vice
application forthcoming
Attorneys for Plaintiffs

43a
APPENDIX E
Exhibit 1 to Complaint for Declaratory and
Injunctive Relief, Maryland Department of
State Police Licensing Division Application
MARYLAND STATE POLICE
Licensing Division Application
Date of Application:
Livescan PCN#

Please read this entire document before
completing your application. Attached is the
application and forms needed to honor your individual
request(s) of the Licensing Division. Please complete
the attached application in strict accordance with the
instructions listed below. Applications not completed
correctly will be returned. Submit all applications to
the Licensing Division's address below. Please do not
submit the instruction information pages with your
application. Processing a properly completed
application may take up to 90 business days to
investigate.
The following application packet was designed
for electronic completion. The form contains
hidden features with sections and questions that
appear or disappear based on the application
types selected by the user. You must complete
the application in its entirety before printing to
sign and submit to the Licensing Division. This
application will NOT be accepted in handwritten
format. Follow all instructions and error
messages as many fields have strict entry
formats required of the user to accurately
complete the application.

44a

All applicants applying for MULTIPLE Licenses,
Registrations, Certifications, Commissions, as an
Agency Firm Member, as a Corporate Officer, and for
Handgun Permits issued under the authority of the
Licensing Division must complete the following
application. Check all licenses that the applicant
wishes to use this form to apply. Attach all additional
documents as instructed in the application, including
appropriate photographs.
Photographs must be 2” x 2” head and shoulder
passport type photographs with a white background,
full face, no hat, no dark glasses. Photographs must
have been taken within the preceding 30 days.
Computer generated photographs are acceptable.
NOTE: Forms are no longer required to be notarized.
IMPORTANT NOTE ON
FINGERPRINT SUBMISSIONS
All original applications require FBI and CJIS
fingerprint submissions. Renewal applications only
require FBI fingerprint submissions except for
Handgun Permit Renewal applications. Handgun
Permit renewal applications DO NOT require ANY
fingerprint submissions. Fingerprints must be
submitted by way of an Electronic Fingerprint
Processing Center authorized by the Maryland
Department of Public Safety and Correctional Services.
Applications associated with fingerprints submitted by
way of an Electronic Fingerprint Processing Center
will require payment to the Maryland State Police for
the application only - Do not include payment for

45a
fingerprints obtained and submitted through an
electronic fingerprint processing center. The
confirmation document provided by the approved
Electronic Fingerprint Processing Center must be
attached to the application to facilitate matching the
fingerprint results to the application. Staple the
confirmation in the upper left front corner of this
application. Input the Livescan Receipt Number (typed
or handwritten) in the field provided on the upper
right corner of the application. Checks or money orders
must be payable to the Maryland State Police and
must be from an active account containing sufficient
funds. Out of state residents applying for a Handgun
Permit must submit electronic fingerprints from a
Maryland State Police approved electronic fingerprint
processing center. For Electronic Fingerprint
Processing Center locations please visit
http://www.dpscs.state.md.us/publicservs/fingerprint
.shtml
In the case of multiple certifications, only one set of
fingerprints is required; however, two photographs are
required for each distinct certification as well as a
separate check/money order for each certification.
(Example: Handgun Permit and Private Detective
Registrant application requires one set of fingerprints
and four (4) photos. The fees total $90.00 submitted via
two checks; one for $75.00 for the Handgun Permit,
and one for $15 for the Private Detective Registration
fee). Electronic Fingerprint Processing Centers
charge, in addition to the cost to process the
fingerprint submissions, a separate processing
fee.

46a

Submit all applications to:
Maryland State Police
Licensing Division
1111 Reisterstown Road
Pikesville, MD 21208
(410) 653-4500 (800) 525-5555
Refer to the certifications and licenses on the
following pages to ensure all required documents
and fees accompany this application.
Handgun Permit Fees required by the Maryland State Police per
statute:
Original - $75.00 fee
Subsequent - $50.00 fee
Renewal- $ 50.00 fee
Retired Police - $0 fee - Per statute
Additional documents required per Handgun Permit
Category:
1. Owner or Employee of a Business:
(a) Submit photocopies of a Trader's License,
Business License, or other legal document
to prove the existence of the business AND
(b) Provide documentation of business
activities that would justify carrying a
handgun, such as the transport of financial
instruments or other items of value.

47a
Examples of acceptable documentation
would include (but are not limited to):
1) at least six (6) recent deposit slips
documenting business revenue;
2) 3 months of recent bank statements
documenting ATM or teller deposits or
withdrawals for business revenue or
expenses; AND/OR
3) at least ten (10) recent receipts or
invoices for purchased supplies, delivered
products, or non-electronic payments
collected for services provided by the
business.
Note: A letter from your banking institution
is no longer accepted to meet this
requirement.
(c) Business employees (not owners) must also
provide a letter from your employer on
business stationery explicitly requesting
that you be allowed to carry a handgun for
business duties and explaining, in detail,
your duties that would require that you
carry a handgun.
Documentation may not be redacted, with
the exception of personal identifiers of
customers or other third parties. Additional
documentation may be required to complete
your investigation.
2. Professional Activities: Doctors, pharmacies,
etc., must show evidence of legitimacy of

48a
business activity and valid certification or
license. Additional requirements may apply.
3. Correctional Officers: Must submit verification
of employment and documentation of threats
and/or assaults.
4. Former Police Officer: If you have resigned or
retired, you must show evidence of your tenure
in law enforcement, such as a letter from your
agency, and a letter from your agency
indicating you left in good standing.
Additional requirements may apply.
5. Private Detective/Security Guard/Special
Police & Railroad Police Commissions: All
applicants who are employed as Private
Detectives, Security Guards, Special Police,
and Railroad Police, must submit a
certification of qualification with a handgun
from a Maryland State Police Certified
Handgun Instructor on an MSP form. A copy of
the form letter supporting “good and
substantial reasons,” ownership of weapon,
and location where the weapon will be
maintained is also required. (This form can be
obtained from your employer).
6. Personal Protection: There must be
documented evidence of recent threats,
robberies, and/or assaults, supported by official
police reports or notarized statements from
witnesses.

49a
Private Detectives/Security Guard
License and Corporate Officer(s)-

Agency

Fees required by the Maryland State Police:
New Agency Private Investigator not incorporated
$200.00
New Agency Security Guard not incorporated
$200.00
New Agency Private Investigator incorporated
$375.00
New Agency Security Guard incorporated $375.00
New Security Guard and Private Detective
agencies not incorporated $375.00 (when
submitted together)
New Security Guard and Private Detective
agencies incorporated $750.00 (when submitted
together)
Corporate officers fee $0 (Corporate officers need
not apply until the company has been approved)
Note: Renewal Applications are mailed to the
business by the Maryland State Police for
completion.
Additional documents required:
1. A copy of the Articles of Incorporation and
minutes of last meeting appointing officers of
the corporation.
2. A copy of the receipt from the Maryland
Department of Assessment and Taxation
certifying that the corporation has registered

50a
as a foreign corporation to do business in
Maryland.
3. Foreign firms or corporations must submit a
Consent to Service form and the Board
Resolution naming the proper officer to
execute it. Not included in application packet,
call for information.
Note: If you employ five (5) or more people, (not
including corporate officers), a copy of the General
Liability Insurance Policy of $1,000,000 (one million
dollars) is required to be attached to this application.
Private Detective RegistrationFees required by the Maryland State Police:
Private Detective Registrant - $15.00 fee
Renewal - $10.00
Security Guard CertificationFees required by the Maryland State Police:
Security Guard Certification - $15.00 fee
Renewal - $10.00
Security Systems Agency License and Agency
Firm Member(s)Maryland Companies - original:
1. A copy of the Articles of Incorporation if
applicable.

51a
2. General Liability Insurance Policy for at least
$50,000.
3. Copies of certifications of any specialized
training related to Security Systems sales,
service and installation.
4. Fees Required:
Individual Licensee - $100.00
Agency Firm Members - $0
Agency Renewal - $100.00
Agency Firm Member Renewal - $15.00
(Corporate officers need not apply until the company
has been approved)
Out-of-State Companies - original: (the below applies
to those states that have reciprocity)
1. A copy of the License and Identification Card
issued by the reciprocal state.
2. General Liability Insurance Policy for at least
$50,000.
3. Copies of certifications of any specialized
training related to Security Systems sales,
service, and installation.
4. Fees Required:
Individual licensee $100.00 (does not
Include background check fee)
(Corporate officers need not apply until the company
has been approved)

52a
Security Systems Registration(Monitor, Salesperson, Technician and persons having
access to circumventing information)
Fees required by the Maryland State Police:
Security System Registration - $15.00 fee
Renewal - $15.00
Additional documents required:
Include copies of certifications of any specialized
training related to Security Systems sales, service,
and installation.
Out of State Registration for Security SystemsAs a Monitor, Salesperson, Technician and persons
having access to circumventional information: (Must
be reciprocal with Maryland with background check
every two (2) years).
Attach a copy of the License / Registration issued
by the reciprocal state.
Fees Required:
Out-of-State Registration - $15.00 (does not
include background check fee).
Special Police and Railroad Police CommissionsFees Required:
Special Police Commission - $100.00 fee
Special Police Renewal - $60.00

53a
Railroad Police Commission - $160.00 fee
Agencies of the State of Maryland - Exempt from the
application fee, however, required to submit
payment to authorized electronic fingerprint
processing center.
Bulletproof Body ArmorMaryland law mandates that all persons with a prior
conviction for a crime of violence or a drug trafficking
crime are prohibited from using, possessing, or
purchasing bulletproof body armor without a permit
issued by the Secretary of the Maryland State Police.
NOTE: A permit to use, possess, or purchase
bulletproof body armor is not required for persons not
convicted of a crime of violence or a drug trafficking
crime.
Notice to all Bulletproof Body Armor Applicants:
(Additional requirements for type of permit)
1. Owner or Employee of a Business: Submit
photocopies of the Traders License or Articles
of Incorporations, and if the purpose of the
permit is for:
(a) Making deposits: Photocopies of six (6)
random deposit slips for the business
showing cash deposits or a letter from the
bank (on bank stationery) attesting that
your business has a cash flow;
(b) Cash Flow: Photocopies of Ten (10)
receipts showing cash paid for supplies
and/or cash received for services; or

54a
(c) Requesting a permit for one of your
employees, or if you are an employee and
you have permission from your employer to
obtain a permit: A letter from your
employer on his business stationery,
explaining in detail why you need
bulletproof body armor as part of your
duties.
2. Personal Protection: There must be
documented evidence of recent threats and or
assaults, supported by official police reports or
notarized statements.
ATTENTION: Submission of this application
does not permit you to use, possess, or purchase
bulletproof body armor. Before you use, possess or
purchase bulletproof body armor, you must
possess a valid permit and keep it on your person
while using, possessing, or purchasing the body
armor.
All applications must be complete and all
checks/money orders must be made
payable to the Maryland State Police.
All fees are established by Maryland Statute.
(All fees, unless otherwise stated, are non-refundable).
Providing False or Misleading Information
May Lead To Your Arrest

MSP Form 29-01 (Rev. 06/2017)

